<html>
<title> - [H.A.S.C. No. 113-101] AIR FORCE PROJECTION FORCES AVIATION PROGRAMS AND CAPABILITIES RELATED TO THE 2015 PRESIDENT'S BUDGET REQUEST</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-101]

                      AIR FORCE PROJECTION FORCES

                         AVIATION PROGRAMS AND

                      CAPABILITIES RELATED TO THE

                    2015 PRESIDENT'S BUDGET REQUEST

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 2, 2014


                                     
[GRAPHIC] [TIFF OMITTED] 
                                     




                  U.S. GOVERNMENT PRINTING OFFICE
87-864                 WASHINGTON : 2014
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
BRADLEY BYRNE, Alabama
                 Heath Bope, Professional Staff Member
                  Doug Bush, Professional Staff Member
                         Nicholas Rodman, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2014

                                                                   Page

Hearing:

Wednesday, April 2, 2014, Air Force Projection Forces Aviation 
  Programs and Capabilities Related to the 2015 President's 
  Budget Request.................................................     1

Appendix:

Wednesday, April 2, 2014.........................................    27
                              ----------                              

                        WEDNESDAY, APRIL 2, 2014
AIR FORCE PROJECTION FORCES AVIATION PROGRAMS AND CAPABILITIES RELATED 
                 TO THE 2015 PRESIDENT'S BUDGET REQUEST
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     2

                               WITNESSES

Jones, Maj Gen James J., USAF, Assistant Deputy Chief of Staff 
  for Operations, Plans and Requirements, United States Air Force     5
LaPlante, Dr. William A., Assistant Secretary of the Air Force 
  for Acquisition, Department of the Air Force; accompanied by 
  Maj Gen John F. Thompson, USAF, Program Executive Officer for 
  Tankers, Air Force Life Cycle Management Center, United States 
  Air Force......................................................     3

                                APPENDIX

Prepared Statements:

    LaPlante, Dr. William A., joint with Maj Gen John F. Thompson 
      and Maj Gen James J. Jones.................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Noem....................................................    53

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    57
    Mr. Langevin.................................................    58
AIR FORCE PROJECTION FORCES AVIATION PROGRAMS AND CAPABILITIES RELATED 
                 TO THE 2015 PRESIDENT'S BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                          Washington, DC, Wednesday, April 2, 2014.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
Room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Today the subcommittee convenes to receive 
testimony on the fiscal year 2015 Air Force budget request 
regarding airlift, tanker, and bomber acquisition programs. Our 
distinguished panel of Air Force leaders testifying before us 
are Dr. Bill LaPlante, the newly confirmed Assistant Secretary 
of the Air Force for Acquisition.
    Thank you for being here, and congratulations to you.
    Major General John Thompson, Program Executive Officer for 
Tankers at the Air Force Life Cycle Management Center.
    And, General, thank you for your service to our country and 
for being here today.
    And Major General Jim Jones, Air Force Assistant Deputy 
Chief of Staff for Operations, Plans and Requirements.
    And, General, also, we thank you for your service and for 
being here with us today.
    As we assess the Air Force 2015 budget, it is apparent that 
sequestration has had the predictable and devastating impact 
that many of us in Congress have warned about over the past 
several years. And as troublesome as the outcome of this budget 
appears to many right now, this budget does not even reflect 
funding at sequestration budget caps, which means the picture 
will only get worse.
    The Air Force states that this budget sacrifices capacity 
to meet minimum capability requirements. But I challenge that 
assessment. Last year, we were told by the service chiefs and 
Chairman of the Joint Chiefs that if one more dollar were to be 
taken from defense beyond Budget Control Act levels, the 
Department would no longer be able to meet the 2012 Defense 
Strategic Guidance. And yet here we are just a year later, with 
a budget that is in fact below Budget Control Act levels, and 
we are being told that the Department can still meet the 2012 
strategy.
    At some point soon, the Department has to stop with the 
rhetoric and fancy gimmicks that conceal true sequestration 
impacts if we are to have any hope of maintaining the world's 
finest military beyond the near term. This budget request is 
detrimental to the Air Force because they are already starting 
from a point of disadvantage, with current readiness at 38 
percent, and the abysmal pace of recapitalization over the 
years to replace our aging fleet of 38-year-old bombers and 49-
year-old tankers. And those are just averages. The B-52 bomber 
fleet is over 50 years old, and the KC-135 tanker fleet is over 
60 years old.
    This budget request preserves the Air Force top three 
modernization programs, two of which fall within the 
jurisdiction of this subcommittee, the new KC-46 tanker and the 
new Long Range Strike Bomber. These are extremely vital 
programs that will be key enablers in giving the joint force 
access and freedom of maneuver in highly contested warfighting 
environments. It is important that we keep these programs on 
track, and thus far it appears the Air Force is making stride 
in efforts to do just that.
    It is also important that we continue to modernize and 
upgrade our existing fleet of tactical airlift to keep those 
aircraft relevant, capable, and accessible. One of these 
upgrade efforts that became a victim of budget cuts in fiscal 
year 2013 was the legacy C-130 Avionics Modernization Program. 
After investing more than $1.5 billion to develop and test this 
program, it was disheartening to see it shelved by the Air 
Force just as it was going into low-rate production. While we 
agree that hard choices have to be made, we disagree on this 
outcome, and look forward to working with you to see how we can 
affordably restore this critical legacy C-130 modernization 
effort, supporting mostly the Air Force Reserve and Air 
National Guard.
    I again thank you for being here to testify, and look 
forward to your testimony. And with that, I turn to my good 
friend and ranking member, the gentleman from North Carolina, 
Mr. McIntyre.

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being with us today, and for 
your commitment and your service. In welcoming Dr. LaPlante, 
Major General Thompson, and Major General Jones, we greatly 
appreciate your service to our country. And it is always a 
privilege to have you come before us.
    Today's hearing, we know, covers the major acquisition 
programs in the Air Force: bomber aircraft, airlift aircraft, 
and tanker aircraft. And while the Air Force did make some 
adjustments to these programs, there appears in the fiscal year 
2015 budget to be adequate funding, which I want to make sure 
that we define that term appropriately, to maintain our current 
aircraft fleet in those areas, and allowing some for 
modernization, but at a slower pace.
    For example, the new budget appears to show that it is not 
going to retire any bomber aircraft, includes significant 
funding upgrades to the B-1, B-2, and B-52 bomber fleets, and 
also keeps on track the new Air Force bomber, the Long Range 
Strike program. Also concerns we have about C-130J Hercules and 
the modernization of the C-5 Galaxy, the budget continues the 
production of the C-130J and modernization of the C-5.
    And finally, in the area of tanker aircraft, the KC-46 
program appears to be on schedule and will enter low-rate 
production in 2015, assuming that the test program proceeds as 
expected. Production of the KC-46 will allow the Air Force to 
finally begin replacing the 40-year-old KC-135 aircraft fleet, 
which I know we have had concern with the tankers at Seymour 
Johnson Air Force Base, which borders my district in North 
Carolina. We know these old aircraft can over time become very 
difficult to maintain, and we hope that we can keep the KC-46 
on track to reduce some of the risk we have seen recently with 
KC-135 in a recent crash that occurred in May of 2013.
    So while the overall budget request for these programs 
appears to continue as we would want, there are still areas of 
concern. For example, the Air Force has stated that, unless it 
gets relief from the sequestration in 2016, it will propose to 
retire the entire KC-10 tanker aircraft fleet. We know our 
current tanker fleet is in demand, it is constantly in demand, 
and rightly so needs to be available to support our other 
aircraft platforms. The prospect of losing these aircraft is 
very troubling.
    Also have concerns about sequestration, as my good friend 
Chairman Forbes knows, and I share the concerns that he has 
expressed with regard to how our Air Force can continue to do 
the fine job that we know you all are committed to doing given 
certain budget issues and restraints. We look forward to your 
testimony and addressing these and other issues that you may 
wish to raise before us.
    And with that, Mr. Chairman, I thank you very much.
    Mr. Forbes. Thank you, Mike.
    And as each of you gentlemen know, this is probably one of 
the most bipartisan committees that we have in Congress, a very 
bipartisan subcommittee. We have a lot of respect for each 
other. So we may have some questions that kind of come in 
different directions here. But it will all be to get to the 
conclusions that we feel we need to get to, to do our markup.
    Dr. LaPlante, thank you again for being here. It is my 
understanding you are going to start us off. And your written 
testimony will be made a part of the record, without any 
objection. And we would love to hear your comments now.

 STATEMENT OF DR. WILLIAM A. LAPLANTE, ASSISTANT SECRETARY OF 
  THE AIR FORCE FOR ACQUISITION, DEPARTMENT OF THE AIR FORCE; 
    ACCOMPANIED BY MAJ GEN JOHN F. THOMPSON, USAF, PROGRAM 
EXECUTIVE OFFICER FOR TANKERS, AIR FORCE LIFE CYCLE MANAGEMENT 
                CENTER, UNITED STATES AIR FORCE

    Dr. LaPlante. Thank you, Chairman Forbes. I will make a few 
comments, and then also ask General Jones to make some 
comments, too. And thank you, Mr. Chairman, thank you, Ranking 
Member McIntyre, thanks to the other members of the 
distinguished subpanel. Thanks for what you do and the 
importance of the questions you are asking us, and the interest 
that you have. I think we all are on the same side on the tough 
stuff we have in front of us.
    I am joined here next to me by General J.T. Thompson. 
General Thompson is of course the Program Executive Officer for 
Tanker for the Air Force. And next to him is General Jones, the 
Assistant Deputy Chief of Staff of the Air Force for 
Operations, Maintenance, and Requirements.
    We are here to talk about the 2015 budget. The 2015 budget, 
as both of you already said in your introduction, had those 
very tough tradeoffs that were essentially between the 
readiness today, are we ready to go to war today globally with 
a force that can fight and win, with the investment for the 
future, and how does one take risk in both places. Because it 
is all about risk. And those are very, very difficult decisions 
to make. And that is really what we have here and what we are 
talking about here in the 2015 budget, and probably even more 
importantly than what happens beyond 2015 and 2016 and beyond.
    So I would say, going back to the fall, I want to just 
perhaps start on some good news and some thank you. Last fall, 
I had the privilege of testifying in front of the HASC [House 
Armed Services Committee] when we were still in the midst of 
sequestration. This was October of 2013. And as we all remember 
from those times, the services were in a very difficult spot 
having to find the dollars for sequester just now, both in 2013 
and 2014, and we were almost living on a month-to-month basis 
on what the rules were. It was a very difficult situation, as 
you all remember, and we were having to choose between two 
things you don't want to choose between, which is operations 
and sustainment, essentially readiness today, flying hours, 
weapon system sustainment, the depots, turns out the furloughs 
of our civilians was out of that account, versus the 
modernization, the RDT&E [research, development, test and 
evaluation] and procurement, our future.
    Those are two choices nobody wants to make. But the fact is 
that is what we were having do. Almost as bad as the dollars 
was the issue of the instability and not knowing how to plan. 
As you all well know, part of our business for the taxpayer and 
the warfighter is doing things like multiyear contracts, 
putting together performance-based logistics contracts that are 
more than 6 months. Knowing what systems we are going to 
sustain versus divest helps us make the right decisions for the 
taxpayer. All of that was the situation in October.
    The BBA [Bipartisan Budget Act of 2013] changed a lot of 
that. I am going to talk about what it changed, but also about 
what it didn't change. The BBA, thank you for the BBA, probably 
more than anything else it helped us with that stability. It 
has allowed us to know what our budget is this year in 2014, 
and it allowed what we can plan for in 2015.
    It also primarily helped us begin to turn the corner--it is 
not going to happen overnight--to put a downpayment back on 
fixing readiness. Mr. Chairman, you talked in your opening 
remarks about the situation with readiness. If the BBA did one 
thing beyond the stability, is it is going to help us start to 
attack that again. And as all of you know, that is not going to 
be done overnight, but at least we can try to turn the corner 
on that.
    In the case of the Air Force, the BBA was able to help us a 
little bit on one of those three high priority programs the 
chairman talked about. We were at risk of losing about four to 
five F-35s under the sequester number in 2014 as well as 2015. 
The BBA allowed us to at least mitigate having to lose those 
airplanes.
    But mostly what the BBA does, again, is bring us the 
stability and allows us to make the downpayment on the 
readiness. So again, thank you and thanks to the Congress for 
doing that. I can't tell you how much of a difference it makes 
just in the atmosphere or the planning and the planners at the 
Pentagon knowing we have something to plan for, even in the 
year we are in.
    But here is what the BBA does not do: It does not 
fundamentally change the situation in the long term in terms of 
force structure that the Air Force has to plan for. As has been 
said by the Chief and the Secretary, we are going to be a 
smaller Air Force, that is true BBA, no BBA, and if we return 
to the sequester level numbers in 2016 and beyond, as we have 
very specific force structure and technology issues that will 
not likely make it in the budget.
    An example that has already been mentioned by the chairman 
is the KC-10. Another example is, I think there are as many as 
four to five tankers that we have, if we get the President's 
budget in the outyears of the FYDP, that we would not be able 
to afford if we were to go back to the sequester number. We 
also will not be able to invest in some exciting engine 
technology that is both cost savings and efficient. And then 
some Global Hawk upgrades. So there are a series of things that 
will not happen if we do go back to that sequester number. It 
is still real and that has not changed, that has not changed 
with the BBA.
    So, again, thank you for holding the hearing. I hope we can 
answer all of your questions, we can give you what went into 
the decisions, what the difficulties are with the decisions, 
and we can have a dialogue and work on this hard problem 
together. So, again, thank you, Mr. Chairman, and thank you, 
the rest of the committee.
    [The joint prepared statement of Dr. LaPlante, General 
Thompson, and General Jones can be found in the Appendix on 
page 31.]
    Mr. Forbes. Thank you, Doctor.
    And, General Thompson, it is my understanding that you do 
not have any opening remarks. I don't want you to think we are 
skipping over you sitting there.
    General Thompson. No, sir, I am not offended in the least.
    Mr. Forbes. Good.
    And, General Jones, we would love to hear from you now.

  STATEMENT OF MAJ GEN JAMES J. JONES, USAF, ASSISTANT DEPUTY 
 CHIEF OF STAFF FOR OPERATIONS, PLANS AND REQUIREMENTS, UNITED 
                        STATES AIR FORCE

    General Jones. Thank you, sir. And, Chairman Forbes, 
Ranking Member McIntyre, and the other distinguished members of 
the subcommittee, I also want to thank you for the opportunity 
to come speak with you, to express our concerns, and to address 
questions that you may have as we work together on the 
difficult days ahead of us.
    As you have heard both our Secretary and our Chief of State 
previously, when we were building the fiscal year 2015 budget 
there were no easy choices, as you have already heard Dr. 
LaPlante allude to. So in this fiscal environment we have been 
forced to divest fleets and cut manpowers that we would have 
preferred to be able to retain. This fiscal year 2015 PB 
[President's budget] total force decision that we put forward 
resulted in increased near-term risk, but we did that in order 
to fund the most critical recapitalization and modernization 
programs and place our Air Force on a course towards a more 
capable force in 2023 and the uncertain years ahead.
    Now, of all the undesirable options that we evaluated, our 
analysis shows that the choices this budget proposes represents 
the least overall increased risk to the Air Force's ability to 
accomplish our full range of missions. And if we are forced to 
reverse force structure divestment decisions without any 
additional long-term increases in funding, then we are likely 
going to have to reverse some of the things that Dr. LaPlante 
talked about in terms of our efforts to increase readiness and 
some of the modernization programs that we have in place to pay 
those bills for the larger force. And that will likely leave us 
less ready and less viable in meeting national defense 
requirements both now and in the future.
    So while the BBA did offer welcome relief in our ability to 
protect our near-term readiness, the fiscal constraints we 
still face force us to look for areas to decrease capability or 
capacity with the least increase in risk towards accomplishing 
that broad range of missions I mentioned earlier that we may be 
called upon to perform.
    Within the tanker, the airlift, and the bomber fleets, some 
of these include reductions in crew ratios across various 
platforms, taking some of our combat-coded aircraft and putting 
them into a BAI [backup aircraft inventory] or backup status, 
reducing or delaying some of the modernization efforts, and 
divesting aircraft where we have excess capacity. We looked at 
our air refueling fleets, and we initially considered divesting 
the KC-10 with our proposal, largely driven by the fact that 
the KC-10 ownership costs are expected to increase dramatically 
as commercial carriers around the world divest the DC-10, which 
results in increased costs to us to maintain the commercial 
equivalents.
    If we do return to the BCA [Budget Control Act] level 
funding, we will likely be forced to revisit that KC-10 
decision in order to garner savings of about $2.6 billion in 
the outyears. It is $2.3 billion in the FYDP [Future Years 
Defense Program] and $2.6 billion in the outyears.
    So as we look to some of these difficult choices, to give 
you a comparison of savings in terms of other mobility 
aircraft, if we turn there, to achieve that same level of 
savings for divesting the KC-10 fleet, it would take an 
equivalent of divesting about 152 of our KC-135s. So that is 
about 34 percent of our tanker fleet. If we didn't want to do 
that because of the criticality that we have mentioned before 
in terms of the tankers, it would take our entire C-5M fleet, 
all 52 of those, to meet the equivalency, or we could take 
about 80 of our C-17s to meet that, which is about 37 percent 
of our airlift capacity.
    So, again, none of those are good choices, and they all 
come in significant increased risks to our ability to do our 
tasks. So the KC-10 divestiture, if we have to go there, we 
think would incur the least amount of additional risk. And that 
is just one example of the things that we have tried to work 
our way through as we balance the portfolios.
    Additional funds, as Dr. LaPlante said, provided by the BBA 
do allow us to retain that KC-10 fleet with our PB, but the KC-
46 acquisition still remains critical to maintain our 
affordable and effective air refueling capability. So in order 
to begin recapitalizing that aging fleet, we do remain 
committed to bring the KC-46 fleet online. And the KC-46 
remains essential to our overall strategy and remains our 
number one mobility acquisition program. And as we bring that 
aircraft online, in turn we will begin to retire the KC-135s on 
a one-to-one basis in the outyears as we build up to our 
requirement of 479 total tankers.
    In our strategic airlift fleet, we assume some risk in our 
airlift capacity by placing portions of our C-5 and our C-17 
fleet in backup inventory status. As we do that, we believe we 
are still capable of meeting national security requirements, 
but our margin of error continues to decrease. One area where 
we know we can save money as we look at these while incurring 
minimal risk is in our C-130 portfolio. Our mobility 
capabilities assessment study determined that there is no 
scenario associated with the current defense strategy that 
requires the current fleet of 358 C-130s. And as such, we 
propose to retire 47 aircraft in this budget submission, which 
is consistent with DOD [Department of Defense] guidance to 
divest excess capacity.
    In the fiscal year 2015 budget we also focus on 
recapitalizing and modernizing our mobility fleet where we can. 
Where possible, we sought to do both, but when compelled by the 
fiscal limitations we chose to recapitalize in order to be 
ready for the future. Along with the KC-46 procurement, we will 
continue to procure C-130J aircraft, as well as key 
modernization programs for the C-130s, 135s, C-17s, and C-5s, 
in order to meet the required FAA airspace access requirements. 
These programs are important for us to continue to ensure that 
we can provide rapid global mobility anywhere in the world.
    So our Air Force continues to strategically invest in our 
long-range bomber fleet of B-52s, B-1s, and B-2s. This budget 
funds a fleetwide upgrade of all of our 76 B-52s with the 
Combat Network Communications Technology, or CONECT system, 
which provides secure line-of-sight and beyond-line-of-sight 
communications, key situational awareness upgrades, and 
machine-to-machine conventional retargeting capabilities that 
we believe are critical to operations in the Pacific theater.
    In addition to the B-52 upgrades, we are going to look at 
the 1760 data bus for the Internal Weapons Bay Upgrade, which 
enables the carriage of our J-series, or smart preferred 
munitions, such as JDAM [Joint Direct Attack Munition], JASSM 
[Joint Air-to-Surface Standoff Missile], and the Internal 
Weapons Bay, and enables carriage of the critical JASSM-
Extended Range [JASSM-ER] that we intend to field in 2017.
    The fiscal year 2015 PB also invests in modernizing the B-
1B with increased capability via new electronics and the 
Integrated Battle Station program, which combines three 
different modification programs into a single installation 
line. By doing this, it enables us to provide the B-1 with a 
completely upgraded cockpit, modernized communications, and 
minimizes impact to the B-1 fleet during that upgrade timeline. 
The budget also makes key investments in preferred long-range 
munitions such as the JASSM-ER that I mentioned, which will be 
carried in large numbers on the B-1 bomber.
    The fiscal year 2015 PB continues to fund the B-2's 
Defensive Management System [DMS] Modernization. However, with 
budget constraints we were forced to defer that completion by 
about 24 months. When fielded, DMS will enable the B-2 to 
continue to penetrate dense threat environments via improved 
threat location and identification capabilities, allow real-
time rerouting, and improve survivability against enemy 
advanced integrated air defenses.
    Our budget proposal also continues to support the Common 
Very-Low-Frequency Receiver program for the B-2, which adds 
survivable communications capability to the B-2. And finally, 
the Flexible Strike program on the B-2 rehosts weapons software 
into the new integrated processor units, which provides a 
foundation for future weapons capability upgrades, and also 
includes future carriage of the B-61 Mod 12 nuclear weapon.
    So, again, the Air Force's fiscal year 2015 budget 
prioritizes readiness, recapitalization over modernization of 
legacy systems to build a bridge to a more ready, capable force 
for 2023 and beyond. A return to the sequester level funding 
will result in an Air Force that is unable to fully execute our 
defense strategy. In order to continue to support national 
strategy and defeat the advancing threats, we must continue 
investments in our top recapitalization and key modernization 
programs, while gaining and maintaining full-spectrum 
readiness.
    So, again, I thank you for your support that you 
continuously provide to our Air Force, and your support to our 
airmen and our families, and I look forward to your questions.
    [The joint prepared statement of General Jones, Dr. 
LaPlante, and General Thompson can be found in the Appendix on 
page 31.]
    Mr. Forbes. General, thank you for your comments. I have 
about three questions I need to get for the record, but I am 
going to defer my questions until the end, make sure our 
members get all their questions in. So at this time I would 
like to recognize my good friend Mike McIntyre for any 
questions he may have.
    Mr. McIntyre. Thank you.
    Briefly, and thank you for running through your testimony 
Major General Jones, I want to just clarify, so the President's 
budget shows a considerable increase to the $913 billion in the 
funding commitment to the Long Range Strike Bomber program. Can 
you clarify for us or elaborate on what this increase in 
funding signals for the program's schedule as far as staying on 
schedule or keeping within what we need to have accomplished in 
the time period required?
    General Jones. Yes, sir. So we do have that in 2015 and 
about $11.7 billion across the FYDP, and our intent is to still 
field the long-range strike variant in the mid-2020s as 
scheduled.
    Mr. McIntyre. All right. And the Air Force has a stated 
goal of a cost of about $550 million per aircraft for the new 
Air Force bomber. Some have questioned the feasibility of that 
very low target cost. How confident are you in that cost 
target? Dr. LaPlante, you may be able to answer that.
    Dr. LaPlante. Yes. Well, I would say right now, which is it 
is easy to be confident now with the following caveat: That we 
are so early in the program, that so far so good, but it is 
very early in the program.
    The $550 million number, what is important about that is 
that, as we say with the LRS [Long Range Strike Bomber], with 
the bomber, we are being very disciplined in the requirements 
on what that bomber will do, will need to do, and any change to 
the requirements. And it has been very disciplined since the 
program was started in 2010. Including in that discipline is we 
are being ruthless on focusing on the costs per airplane now 
while they are beginning the design. So in other words, if one 
is designing to a number versus designing to something else and 
then a number is thrown on of how much it should cost later, it 
is a very different approach.
    So the $550 million, which refers to--being a physicist, I 
always have to give reference points; if it is decibels I have 
to tell you what it is referring to--550 is fiscal year 2010 
dollars, and that is the average price per unit, and that 
assumes we have 80 to 100 bombers that we ultimately will 
build.
    So what we have done is we put that marker in the sand, and 
we said design to that. Design to that. And that is driving, if 
you will, the fixed requirements side of this bomber. And so 
that is the way it is being done, and so far we are optimistic. 
But I would--I would be very cautious to say if I wasn't 
optimistic this early in the program, we would have a problem. 
So it is so far, so good.
    Mr. McIntyre. Thank you. Thank you.
    Were you going to comment? Was there another comment?
    General Thompson. No.
    Mr. McIntyre. Okay. All right. Thank you.
    Mr. Forbes. Thank you, Mike.
    Now we recognize Mr. Runyan for 5 minutes.
    Mr. Runyan. Thank you, Chairman.
    And, gentlemen, I know you probably know where I am going. 
Obviously, I represent Joint Base McGuire-Dix-Lakehurst, so the 
KC-10 is something that is there. I had the opportunity this 
morning to be in the presence and have a meeting with General 
Stough talking a little bit about moving forward.
    And, Chairman, putting that out there, it is something that 
I am going to continue to fight for in my short time here. But 
I want to remind the Members of Congress and bring up, and I 
believe Secretary Gates said it, one of the biggest national 
security threats is our debt. And the fact that we still have 
the sequester hanging over us is Congress' inability to deal 
with our debt.
    Now, again, now if you want to move it to the KC-10 issue, 
creating a readiness force structure issue further down the 
road. So we have compounded one and made it a bigger problem, 
and we still haven't addressed the original one.
    And going to that and talking about this process, General 
Jones, you said in your view doing the vertical cut of the KC-
10 has the least amount of risk to it. Well, I ask this 
question to both General Thompson and General Jones: To your 
knowledge, how many airframes in the history of aviation have 
come out on time?
    General Jones. Sir, I am not aware.
    Mr. Runyan. I have heard not many.
    General Thompson. Sir, I don't know either, but I would 
characterize your statement as being pretty close to accurate.
    Mr. Runyan. And it is scary when we see, you know, the 
sequester thing has been thrown out there, obviously, I don't 
know, for lack of a better term, the incompetence of Congress 
to be able to address that issue is going to create a massive 
issue, I want to be able to say, in readiness down the road, 
because obviously you are going to have to make a decision.
    Now, you know, if the 46 isn't ready to go, where are we at 
there? I know it is a hypothetical question, but it is of 
serious concern. And I have seen this happen so many times. We 
put a lot of these ideas out there and actually scare the 
living daylights out of people that, you know, you are going to 
eliminate whole wings and all that kind of stuff. It is 
frustrating. And I know there are no answers to any of the 
questions I just put out there, but I just wanted to put them 
out there to really say that this is a serious, serious issue. 
And this is one near and dear to me, but I think it is a pretty 
big chunk out of what, you know, the capabilities, especially 
that Air Mobility Command can bring to the table. And it has 
detrimental effects down the road.
    General Jones. Sir, if I might comment. Sir, I share your 
concern. The reason I said that it is the least risk is that 
our plan right now is we maintain the KC-10, is to divest the 
135 on a one-for-one as the KC-46 comes up. If in fact that we 
go back to sequester and we have to start looking at the KC-10 
fleet, we intend to do the same type of methodology, which 
would be to divest the KC-10 at a rate based on the KC-46 
coming online. We do incur some increased risk by doing that 
just due to the capabilities that you are well aware of, of the 
KC-10's ability to self-deploy. And that is the key thing in 
the Pacific, that we see that increased risk. But, sir, we 
would manage that divestment of the fleet based on the KC-46 
coming online.
    Mr. Runyan. I thank you for that, because I have actually 
tried to get that answer out of a few people in the past year 
and haven't been able to. So I appreciate it.
    And I yield back, Chairman.
    Mr. Forbes. Thank the gentleman.
    And, General Jones, could you just elaborate a little bit 
on what Mr. Runyan said about the risk that you see that we are 
running in doing that? Because that is something we have not 
done a very good job of painting pictures.
    General Jones. Yes, sir. And as you both are well aware, 
our air refueling fleet is critical not only to the Air Force, 
but to all of our joint partners, the Marines and the Navy, as 
well as our coalition partners. And so we do understand the 
requirement to do that.
    Sir, we see our requirement to be about 479 tankers. That 
is to meet the Defense Planning Guidance with an acceptable 
level of risk is doing that. Sir, when I talk about increased 
risk, the challenge that we face, if in fact we have to divest 
the KC-10 and we go that route, will be managing the ramp of 
the KC-46, coming up with the divestiture of the KC-10.
    If they both were to stay on a projected, the area that we 
think that we would probably see some increased risk is about a 
2-year period, sir, and that is just as the KC-10 drops below a 
certain level, which we can give you in a classified 
environment. But it really is that transition point and making 
sure that as the KC-10 gets below a certain level if the 46 
hasn't matched that level, there is about a 2-year period, sir, 
where we see some increased risk.
    And, again, our biggest risk for the KC-10 fleet, it has 
the ability, while there are certainly advantages and the 
ability of fuel at range, because of the capacity that it 
carries, the largest advantage in a Pacific scenario is going 
to be our ability to rapidly deploy and start turning air 
power. The KC-10, because it can deploy, it can self-deploy, 
carry everything that it needs to turn and go, is where we 
would see that increased risk happening.
    Mr. Forbes. Thank you, General.
    Mr. Kilmer is recognized for 5 minutes.
    Mr. Kilmer. Thank you, Mr. Chairman.
    I thought I would start with you, Dr. LaPlante. I am 
interested in acquisition reform. And I would appreciate your 
thoughts about what Congress can do to help you and the Air 
Force maximize the dollars that are authorized and appropriated 
to support your mission. I am particularly interested in 
understanding your thoughts on the increased use of multiyear 
contracts with prime vendors and whether or not it makes sense 
for prime vendors to control subcontract sourcing so long as 
they can demonstrate effective competition.
    Dr. LaPlante. Thank you for the question, because we could 
spend many hearings talking about acquisition, acquisition 
reform. I will start by going to where you ended, on the 
specific question on multiyears. I think that done correctly, 
meaning with proper transparency and the like, multiyears to 
primes can be a very good thing for the government.
    What I would caveat that to be, or to add to it would be 
the following. I would say, first, I think that the ability of 
the government to have transparency into what the prime, let's 
say, negotiates with their sub is more than people in the 
government realize. In other words, maybe too often in the past 
I think we have accepted not being part of understanding what 
the supply chain is, what the negotiated rates even are, when 
in fact we can be part of that, we can understand what those 
rates are.
    And we have been doing more of this under Mr. Kendall's 
``should cost,'' where the government has been with the primes 
understanding what they are paying for their subs. Again, not 
trying to do anything other than be transparent and get the 
best deal for everybody. So I think that any time, in my view, 
the Congress hears a good case for multiyear, a good case that 
we have a good acquisition strategy, anything the Congress can 
do to help with that regard is very good.
    I think the other thing I would ask, and this is perhaps a 
little bit general, so I would have to think about how to make 
it specific and actionable, but I think tracing accountability, 
responsibility, and authority in acquisition, and always asking 
ourselves the question, do we have clarity to it? Have we made 
it clearer with what we are doing or have we actually made it 
harder with what we are doing is something that would be very 
wise. And what I mean by that is, I have a lot of good 
colleagues, good friends of mine who are around the Department 
of Defense who will be involved in acquisition programs, and 
they will rightfully say, I have to be involved in it because I 
am held accountable, or I think I am held accountable for this 
piece of software engineering, or this piece of that. And they 
are absolutely right and they are absolutely sincere.
    But the aggregate is a program manager has a lot of people 
trying to, quote, ``help them'' that feel that they are also--
they think they are kind of accountable, but really at the end 
of the day it is the program manager and the PEO [program 
executive officer] that is accountable and the SAE [service 
acquisition executive]. So I think that that balance and that 
discussion is really important to have. And some of the things 
that we do, while well intentioned, if they are not clear as to 
who is actually going to be accountable, they actually can 
hurt.
    So what I say when people ask me in acquisition do we hold 
people accountable, and if I don't think we do, but I think 
what is foundational underneath that is we sometimes are not 
clear as to who is actually accountable, and it is because we 
have a lot of stakeholders. So things that the Congress can do 
to help us clarify those roles and responsibilities, to say, 
you know, this organization can help here, this can advise 
here, but the accountability of the outcome is this chain would 
be helpful.
    Mr. Kilmer. Thank you.
    Major General Thompson, it is our understanding that the 
Boeing company is actively marketing the KC-46 to our 
international allies. It stands to reason that it is mutually 
beneficial to both U.S. security strategy and to our coalition 
partners' success that the KC-46 be integrated in as many of 
our allies' air forces as possible. To what extent are the DOD 
and Air Force leveraging this successful program and helping 
increase our foreign military sales?
    General Thompson. Thanks for your question, Congressman. I 
can't overemphasize how important it is to have that 
interoperability around the world with our allies, not just in 
tankers, but across our various fleets of aircraft.
    The United States Air Force is doing what it can to assist 
the Boeing company in their marketing for both foreign military 
sales and direct commercial sales of KC-46 around the world. We 
do that in several different ways. When allies have questions 
about what the capabilities are with the program, or 
capabilities are with the jet, or what the status of the 
program is, we answer them to the best of our ability. In 
addition, we ensure that senior leadership of the Air Force 
that exists in the AORs [areas of responsibility] where allies 
are considering KC-46s for purchase are as up to speed on the 
program as possible.
    And then, for instance, just as an example, here I believe 
it is next week a significant number of the air attaches from 
here in Washington, DC, at foreign embassies are coming to 
Wright-Patterson Air Force Base to visit the Air Force Security 
and Assistance and Cooperation folks. What we have arranged to 
do during that time is have Boeing bring their KC-46 simulator 
and aerial refueling operator station simulator to Wright-
Patterson so that these air attaches can see what the 
capabilities of the aircraft are and to hear a status of the 
program.
    Mr. Kilmer. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Mr. Wittman is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. LaPlante, Major General Thompson, Major General Jones, 
thank you so much for joining us today, and thanks for your 
service to our Nation. We deeply appreciate that.
    Major General Jones, I want to ask some questions about our
B-1 fleet. You know, the Air Force is required by law to 
maintain a B-1 combat-coded inventory of 36 aircraft, which the 
Air Force is doing. However, the subcommittee understands that 
for 3 of those 36 aircraft they don't have the same crew ratio 
or flying hours programmed against them as the other 33 B-1 
combat-coded aircraft do. Can you explain the reason for this 
difference? And what risks do we incur in meeting combat 
commander requirements if all 36 combat-coded B-1 aircraft are 
required to meet presence and operational requirements?
    General Jones. Yes, sir. Thanks for the question.
    So my understanding, sir, is that several years ago we did, 
as we put our Air Force budget forward, there was a proposal to 
reduce down to 33. As you are likely aware, the decision was 
made to hold at 36. Sir, my understanding is that we have not 
yet, as you said, fully funded those remaining three.
    Now, they are being maintained, all the modernization of 
those aircraft are still viable. But, sir, I will be the first 
to tell you that our bomber fleet and the requirements that we 
have to do around the globe, we don't have enough. And so there 
is increased risk as a part of that, which is why we need to, 
and are going to, look at in our fiscal year 2016 budget what 
it would take to be able to restore that funding.
    Mr. Wittman. Very good. I think that is absolutely critical 
as we look at the challenges around the world and what those 
requirements are and where we are with our current bomber 
fleet.
    Let me go back to the tanker question. I find it 
interesting, the USTRANSCOM [U.S. Transportation Command] 
requirement for a tanker fleet is at 567 aerial tankers to meet 
steady state and current contingency surge requirements. The 
Air Force requirement, as you just stated, was 479, yet our 
fleet only has 454 tankers in it. Can you tell me then 
presently where are we as far as the risk that we look at based 
on present fleet, present Air Force requirements, TRANSCOM 
requirements today? How does that risk become exacerbated then 
in the future if we aren't able to close either of those two 
gaps?
    General Jones. Yes, sir. So you are exactly right. So with 
455 that we have now, as we continue to bring the KC-46 on, as 
I alluded to earlier, as we hit 479 we will start divesting 
some of our legacy.
    Sir, the higher number that you heard from TRANSCOM, we do 
have a number of different studies that are out there. That 
number that you referred to is from one of our older studies, 
the Mobility Capability Requirement Study 2016. And that number 
is actually at the, again, while avoiding specific discussions, 
if I had to characterize it, I would say it was very low risk. 
So it was almost an unconstrained requirement.
    Sir, our 479 analysis that we have done is what I would say 
is probably right in the middle of the risk spectrum. And so 
any number that we have, so your question as to where we are 
right now, we still believe we can do that, but as we deviate 
one side or the other, it either increases or decreases that 
risk. In today's environment, we do not have enough money to 
buy every fleet to the lowest amount of risk. And so that 479, 
we believe, is in the heart of the envelope.
    Mr. Wittman. Let me ask this then. At the 479 number, in a 
rough percentage, how far short will you fall of combatant 
commanders' requests and service branches' requests? Obviously, 
you refuel other aircraft in the air. Tell me approximately 
where you would fall short in those requests.
    General Jones. Sir, it is difficult to give you a specific 
answer, because it largely depends on a number of things. So 
depending on where we are going to have to use those tankers in 
a fight, the key challenge is going to be the basing 
requirement, and then the proximity to the fight, because the 
distance requires, that is how much off-load there is to be 
able to give that range. So it is difficult to give you a 
specific number.
    But, sir, what I stand by is the fact that our analysis 
shows that in the Defense Planning Guidance, and I know you are 
familiar with what those requirements are, we believe that we 
can meet those. But, again, as we sway either way on numbers, 
it will affect the level of risk that we face.
    Mr. Wittman. In managing this tanker fleet, you talked 
about the options there with the KC-10 and retiring the KC-10. 
Give me a scenario if Congress tells, says, no, you are not 
going to require the KC-10, tell me what your options are to be 
able to manage the resources you have within that context.
    General Jones. Yes, sir, absolutely. So if we do it within 
the mobility construct, I alluded earlier that you could take 
an equivalent of 152 KC-135s, sir, I don't think we can do 
that. That is too much of the boom availability that is out 
there. Again, we could look within the STRAT [strategic] 
portfolio and look at the C-5s. Each one of those within the 
mobility portfolio that we are addressing here today is a 
significantly higher number of risk.
    So, sir, what we really have to do, if we did that, would 
be, as all of the dust settled and all of the programs were 
settled, we would have to go back and look at the remaining 
programs that are out there and start trying to see what we 
would be able to do. It is $2.3 billion, and, again, another 
$2.6 billion in the outyears. So we would have to figure out 
which program we could do that.
    But my main message to you, sir, is that we believe in our 
best judgment that this portfolio as presented right now is the 
least amount of risk incurred. And so anything that we would do 
would likely increase that risk.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. The gentleman from California, Mr. Cook, is 
recognized for 5 minutes.
    Mr. Cook. Thank you, Mr. Chair.
    Gentlemen, thank you for being here today. I hope some of 
the questions I ask today don't reflect my age or the old 
corps, the old Air Force, or things like that. But we had this 
brief this morning, and we talked about Korea, and of course 
the shift now of course to the Pacific. And I am very, very 
concerned about the distances involved. I think the end of the 
Cold War, when we used to have the air alert battalions, and 
whether you had C-130s or 141s, or what have you, everything 
has changed.
    I am really worried about the lift capability that we have 
in case something goes south, literally, in Korea, you know, 
whether we can transport those, I am thinking the 82nd 
Airborne, Army forces, 1st Marine Division, maybe even the 2nd 
Marine Division. These are long distances. When I was younger, 
it was fun to be a platoon commander, company commander, and 
then they made me a logistics officer. Air Force is great, but 
when you would start getting the manifests and all the gear 
that has got to go, I just don't feel good about the fact that 
over the years we are not going to have that time for a 
buildup. It is going to go very, very quickly.
    And if you could address that, make me feel better about 
the emphasis on the Pacific and the fact that the combat 
windows, when we have to react, are going to be much shorter, 
and the impact on the craft, the civilian and Reserve air 
fleet, and whether we can meet those commitments.
    General Jones. Yes, sir. Thanks very much.
    So, again, I will keep alluding back to our analysis. As 
you know, we have 301 of our aircraft right now that are 
strategic lift. And we believe that we can go down 275 and 
still meet the Defense Planning Guidance.
    Sir, I share your concern over the amount of lift that we 
are going to have to do. And as we take some of our strategic 
airlift and we put it over into BAI--so, for example, we are 
taking 16 of our C-17s and we are putting them into an 
attrition reserve status, a BAI status, we are taking 8 of our 
C-5s and doing that--sir, that will decrease about 10 percent 
of our required million ton miles, the main metric that we use. 
That is not insignificant.
    However, when we look at all of the things that we are 
going to have to do, so, you know, we are divesting fighter 
squadrons, we have taken cuts in all of our portfolios, and so 
as we try to balance the risk across what our Air Force is 
going to have to be able to do, that reduction that we are 
looking at in both strategic lift and in the tactical lift for 
the C-130s we believe is the right--or is compared to the broad 
risk across is----
    Mr. Cook. Okay. Let me ask you. I haven't looked at an op 
[operation] plan for Korea for years. Do you think the op plans 
are current now with the threat assessment that has changed in 
terms of time that we can meet those commitments? Obviously, 
the sequester, readiness, all those things there. But the op 
plans probably haven't changed since then. And that is what you 
use as the bible when you break it out, you go in the top 
secret vault, you know what I am talking about. So are we up to 
speed on that?
    General Jones. You know, Congressman, you bring up a great 
point. So I want to make sure that I go on the record as saying 
as we talk about risk in the Defense Planning Guidance, those 
are not the O [operation] plans that you are referring to. 
Those are commonly agreed upon scenarios that all of the 
services use. And they are different from the O plans.
    Sir, your question of the O plans, are they current? Again, 
you know, I was on a COCOM [combatant command] staff, but I am 
not now. But every one of those O plans stay in revision, and 
they are all in different levels of that. And so what I would 
tell you is that the COCOM commanders will continue to upgrade 
those O plans as the threat environment changes.
    Mr. Cook. And because of what happened with the Snowden 
affair and everything like that, I am sure they have to be 
changed just because of that. That takes time.
    General Jones. Sir, it does. And we are still sorting 
through a lot of it.
    Mr. Cook. Okay. Thank you.
    I yield back. Thank you.
    Mr. Forbes. The gentlelady from South Dakota is recognized 
for 5 minutes.
    Mrs. Noem. Thank you.
    I wanted to just do a little follow-up with Dr. LaPlante on 
the question that Mr. McIntyre brought up about the cost of the 
Next-Generation Bomber. And you were talking about the 
discipline that has happened in the spending on what that cost 
would be, around $550 million per aircraft, but your principal 
military deputy for acquisition was at a press conference last 
week and stated that of course it would cost more than that.
    So how far off are we talking about? And just explain that 
statement that he made at that press conference to us so we can 
have some context as to what we are looking at as a plan for 
this bomber as it develops.
    Dr. LaPlante. Right. So the headline and the bottom line is 
what I said earlier, and if he was here he would say the same 
thing. To try to explain what he was saying, I would put it 
this way. He was in the midst of a discussion and trying to get 
at people who were focusing on the particular number, and when 
the number would happen, and all of that, and he was trying to 
get people to say, look, you know, whether it is 550, don't 
focus on that number itself.
    And so what it really is about is we are trying to remind 
people, look, this is 2014, this is a target we put in the 
sand. We use 2010 dollars, fiscal year 2010 dollars, we put 
this number of 550, and they are designing to that, and as our 
best estimates are they are on track to do that, period, end of 
story.
    In history, how often have 30 years later have people 
nailed it within 1 percent? You know, it is the same as the 
history of, like, when is the last time we did this or did 
that. That is kind of not the point. And I think that is what 
he was trying to get people at.
    And so for me as an acquisition kind of technology guy, 
what is clear is, and it is surprising that we don't do this 
enough, is we don't sit the engineers and the concept people 
and the requirements people down at the very beginning of the 
program and say, oh, by the way, it can't cost more than this 
much money. So if you come up with a design that costs more 
than that, it is not going to work. And that is different that 
we are doing for this. And that is the key point.
    Mrs. Noem. Okay.
    Dr. LaPlante. So there is nothing that has changed, nothing 
at all.
    Mrs. Noem. Okay. I appreciate that clarification.
    And then, Major General Jones, I shared the same concerns 
that Mr. Wittman did as well with the B-1s. And I was just 
wondering if you knew and had ballparked the cost to get those 
3 aircraft back up to fully manned levels like the other 33 B-
1s, what would that approximate cost be? I know that you are 
not anticipating doing that until fiscal year 2016, but what 
are we looking at as a need financially to make that happen?
    General Jones. Ma'am, I would like to make sure I get that 
number right, so if you don't mind, I will take for the record 
and get back to you.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mrs. Noem. Okay. That would be wonderful. You were very 
clear in the statement that we faced risks around the world, 
and we could use those bombers in the air when necessary. And 
so that cost would be very helpful to know what that would 
take.
    And also, I just wanted to also talk to you about the New 
START [Strategic Arms Reduction Treaty] treaty. And it requires 
a reduced number of deployed nuclear weapons, which would 
require the Air Force to decertify a certain number of B-52 
aircraft. And so what is the projected number of B-52s that you 
would decertify in order to meet these New START treaty 
requirements?
    General Jones. Yes, ma'am. And so as you allude to, we are 
required to come under the 700 of deployed systems. What we 
would like to do is not go below 60. But ma'am, we really won't 
know until the whole, across the whole triad, that number has 
to be resolved. And so until all those deliberations are made, 
we don't know yet as to what the final number would be.
    Mrs. Noem. When do you think that would be?
    General Jones. Ma'am, I am unprepared to tell you what that 
timeline is, but again, I can get back with you.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mrs. Noem. Okay. Perfect.
    With that, Mr. Chairman, I yield back.
    Mr. Forbes. Thank you for your questions.
    Gentlemen, I have just a couple of questions and then we 
will have one more question.
    Approximately $200 million is included in this year's 
budget request for continued development of the air-launched 
LRASM [Long Range Anti-Ship Missile] Increment 1 missile that 
will be fielded onto the B-1 bomber in 2018 to fulfill an 
urgent operational need of the PACOM [U.S. Pacific Command] 
commander. Can you provide us an update of the program's 
progress and explain how Increment 1 will fill the PACOM 
commander's capability gap that currently exists?
    Dr. LaPlante. Yeah, I can talk a bit, and then maybe turn 
it over to General Jones.
    So I know that that is in, as you said, the B-1 is the 
initial target platform for that weapon, and that it has 
primarily been worked on the Navy side starting with DARPA 
[Defense Advanced Research Projects Agency]. I have familiarity 
with that program only because of some of my history in working 
on it. And it has been something that has been a dire need in 
the Pacific for years, frankly. And so as far as I know, it is 
on track to meet that
B-1 as the target platform.
    I will turn it over to General Jones.
    General Jones. No, sir. As you allude to, sir, it will be 
critical to PACOM, just due to the environment that is there. 
And so we are watching it being developed closely. And, sir, I 
have no other details than Dr. LaPlante said, other than the 
fact that it will be an objective for the B-1.
    Dr. LaPlante. If I could add one other thing. I do think 
that we should be looking at--and LRASM is a good example of 
increased capability, whether it is range and the like and 
precision, but also how many--it gets to similar with the 
bomber--how many of these can we actually produce? Which means 
we have to keep the costs down. Because we are being challenged 
not just by geography, as the Congressman said, but we are 
being challenged by, frankly, numbers. And so for weapons like 
LRASM, which are great weapons, we also have to think, how can 
we make sure we have sufficient numbers of these?
    Thanks.
    Mr. Forbes. In the press 2 weeks ago it was reported that 
your estimate for Boeing at completion of development of the 
KC-46 tanker is approximately $1.1 billion above the original 
program estimate and above the ceiling limit of the contract. 
Can you provide us your reasoning for the cost growth? And will 
this cost growth impact the program's execution?
    General Thompson. Mr. Chairman, thanks for the question. 
And by the way, that is a great question.
    There is always some risk in acquisition programs, but 
based upon what we know today, the KC-46 program is executing 
as well as any acquisition program that I have ever been 
involved in, in 27 years. We are about 50 percent done with the 
development program. We have had excellent funding stability 
from here on the Hill and from within the Department. We have 
had excellent requirements stability from our warfighting 
brethren. We have not made any engineering changes to the 
design in the first 3 years since contract award.
    But there is always risk. That EAC [estimate at completion] 
that was reported in the press here several weeks ago is 
basically our estimate that reflects that an increase in 
resources that the contractor may need to complete the work on 
the contract, but doesn't necessarily mean that there will be 
any schedule slip to the program.
    From our standpoint, the United States Air Force has lived 
up to its obligations under the contract. We have paid all our 
bills on time, we have kept the requirements stable with no 
ECPs [engineering change proposals] in 3 years, and we have 
lived up to our other support aspects of the contract. So I 
think it is fair and reasonable to assume that the contractor 
will live up to their commitments on the program and deliver on 
time. Regardless, the government's liability, as you correctly 
stated, remains capped at $4.9 billion. So we have insulated 
the taxpayer from any additional cost overruns relative to 
development.
    I guess I would just conclude by saying we are 50 percent 
done. I have been at this business a long time. And you have 
been overseeing programs like this for a long time, Mr. 
Chairman. We have a lot of work to go. Our design is set. Our 
critical design review was accomplished approximately a month 
ahead of schedule last year. But we are getting ready to get 
into flight test later this summer. We are potting our long-
term sustainment strategy over the next year.
    So things can happen. And I will just say in conclusion 
that the program office and all of the stakeholders across the 
Department of Air Force and the Department of Defense will 
flight follow this very, very closely, making sure that we 
deliver on time with a weapon system that is ready for war on 
day one.
    Mr. Forbes. Thank you. I have just one last question. It is 
a little bit lengthier. But on March 12, we had a hearing with 
retired Admiral Natter and Dr. Rebecca Grant to discuss their 
assessment of the 2015 budget request. And during Dr. Grant's 
testimony she brought up three specific areas regarding the new 
bomber that we should consider. One, overclassification of the 
LRS-B [Long Range Strike Bomber] program may restrict the 
technical work and cross-flow that the prime contractors must 
go through to produce an adequate system. And she also 
suggested that the program should come out of the black. Number 
two, is the technology scope right for this bomber to 
accommodate its lifecycle capability growth to keep pace with 
future threats? And number three, is the current quantity of 80 
to 100 bombers sufficient to meet future needs as legacy 
bombers begin to retire?
    And if I could add to Dr. Grant's observation on total 
quantity, the decision to procure 80 to 100 bombers was made 
before the 2012 Defense Strategic Guidance implemented a 
refocus on global anti-access/area-denial environments, and the 
Department's pivot to the Asia-Pacific. Given the time and 
tyranny of distance associated with long-range strike and the 
number of targets that combatant commanders would likely rely 
upon the new bomber to engage, is 80 to 100 still the right 
number? And could you provide us with an unclassified 
assessment of Dr. Grant's observations and whether or not we 
need to address these in the development of our 2015 NDAA 
[National Defense Authorization Act]?
    Dr. LaPlante. Thank you for the question. I will take the 
first two and maybe the third I will defer.
    Mr. Forbes. Sorry to layer those on.
    Dr. LaPlante. Oh, that is fine. That is fine. Thank you.
    The security question is an interesting one. Had I been in 
front of this committee 4 years ago I might have agreed that, 
you know, we tend to overclassify and sometimes that hurts 
innovation. I have completely changed my view, and I will just 
say it was influenced by my time on the Defense Science Board.
    Some of you may be familiar with the Defense Science Board 
study on cyber and the resilient cyber-threat that was out last 
year. I was on that study. I am convinced as a result of 2 
years of looking at cyber we are not overclassifying. We are 
not overclassifying. We have to protect and have to understand. 
What I am worried about is all our unclassified designs that 
are out there.
    So, no, the fact that we have our crown jewels protected, 
thank goodness. And, again, I would not have said that 4 years 
ago, and that comes from 2 years of studying cyber.
    On the second question, which is about the technology, the 
design of the acq [acquisition] strategy, as we have already 
discussed, is this idea of what people have called the Block A 
approach, where you go for the 80 percent in the first version 
that you deliver, the 80 percent airplane, and you keep this 
focus on requirements that we have talked about, including the 
550 number as the baseline.
    What goes along with that, though, is we have to build the 
runway and the ramps to put in upgrades. We have also said, 
rightfully so, to get to this 80 percent we are not going to 
repeat mistakes made in other programs by requiring the first 
version to be so advanced in technology that it gets pushed to 
the right and there is never a second version because people 
don't believe there will be another block.
    So we are holding firm to that. But that means that we also 
have to hold firm to building, if you will, the next generation 
of technologies that hooks into the bombers, hooks into either 
an open architecture with new sensors, hardened spots on the 
wings, things where we don't know what the world is going to be 
and what the threat is going to be and we don't know what 
technology is going to be there, but we have to build it such 
that, and have the technology ramp, if you will, that can 
inject these technologies.
    One of the things that I have been looking into since my 
short time on the job is do we have that sufficient technology 
ramp to feed next-generation versions, blocks of that bomber. I 
think in some areas we do and some areas we don't. I would 
rather not, and we can't talk about it more here.
    But that is how I would answer that question on the 
technology. I think it is a good question, because the good 
side is that we are fielding highly mature technologies and 
fixed requirements. But we have to finish the deal by funding 
the advancements in the next versions of the block. So that is 
the answer to the second question.
    The third, General Jones.
    General Jones. Sir, when we talk about capabilities and 
quantities--and, again, in the follow-on session we will be 
able to get into more detail--so, sir, the question about 80 to 
100, we absolutely believe that we need this penetrating strike 
capability, a long-range penetrating precision strike 
capability, just like we also need penetrating ISR 
[intelligence, surveillance, and reconnaissance]. We need to 
get after this anti-access/area-denial [A2/AD] threat that we 
continue to face and proliferates. As Dr. LaPlante said, 
technology is proliferating at a rate, and so where we used to 
have a significant technology advantage, I believe we are 
losing that. So we have to look at not only the capabilities 
and the capacities.
    But, sir, what I would offer to you is it is not just that 
one platform. You brought up the LRASM piece and I appreciate 
the opportunity to come back to that. It is a combination and 
we need to look at things as a family of systems. And so we 
need to continue to invest in the ability to not only have an 
airplane that can penetrate through, but to also take our 
legacy platforms, modernize them, and make them more 
survivable, plus give them the ability to do the preferred 
standoff munitions that will increase the tempo of kinetic 
effects as we also try to honor that A2/AD environment.
    So what we continue to look at is not only each system, but 
the family of systems, which is why it is critically important 
that not only we keep this program on track and we continue to 
assess the numbers and capabilities, but we also look across 
our portfolio to include preferred munitions, that as we take 
penetrating airplanes, perhaps open a corridor, it starts to 
increase the viability of our legacy platforms. And the 
modernization efforts that we are taking with our B-1s and our 
B-52s will make that aircraft viable to 2040, longer for the B-
2, and so we will continue to leverage those modernization 
efforts.
    Mr. Forbes. Thank you. And I would like to welcome the 
gentleman from Oklahoma, Mr. Bridenstine, and ask unanimous 
consent that he be allowed to participate in today's hearing.
    Without objection, so ordered. Mr. Bridenstine will be 
recognized at the appropriate time after all subcommittee 
members have had a chance to ask their opening questions.
    It is my understanding, Mr. Johnson, that you have no 
questions to ask at this time.
    And Mr. Conaway.
    Mr. Conaway. No questions.
    Mr. Forbes. So with that, Mr. Bridenstine, you are 
recognized for 5 minutes.
    Mr. Bridenstine. Thank you, Chairman Forbes. I appreciate 
you letting me sit in on this hearing. And, of course, I thank 
the distinguished panel for being here and answering our 
questions.
    General Jones, I had a question for you. You are a pilot, 
an Air Force pilot. I just wanted to ask what kind of aircraft 
you flew?
    General Jones. Sir, the majority of my time is in F-16s, 
but then I also flew tankers, AWACS [Airborne Warning and 
Control System], and JSTARS [Joint Surveillance Target Attack 
Radar System].
    Mr. Bridenstine. When you flew the F-16, did you have a 
heads-up display?
    General Jones. Yes, sir, I did.
    Mr. Bridenstine. And did you have terrain awareness and 
collision avoidance equipment inside the F-16?
    General Jones. Yes, sir, you had a line in the sky you 
could set for awareness.
    Mr. Bridenstine. And then how about when you talk about 
your heads-up display, you probably had some navigation 
equipment, VOR [Very high frequency Omni Directional Radio 
Range], TACAN [tactical air navigation], ILS [instrument 
landing system] equipment integrated with the heads-up display?
    General Jones. Yes, sir, I did.
    Mr. Bridenstine. Were these systems beneficial for the 
safety of your aircraft and for you personally?
    General Jones. Yes, sir, particularly in a single-seat 
aircraft.
    Mr. Bridenstine. Absolutely.
    See, the thing that I have seen here in Congress, we have 
authorized funding for the Avionics Modernization Program [AMP] 
for C-130H. We have not only authorized the funding, we have 
appropriated the funding. We did that for fiscal year 2012, 
authorized, appropriated, went to the Pentagon, and the money 
never got obligated. We did it in 2013, authorized, 
appropriated, went to the Pentagon, never got obligated. 2014, 
we explicitly passed in the NDAA a prohibition on the 
cancellation of C-130M.
    This is personal for me. I am a Navy pilot myself. I have 
flown aircraft that have modern cockpits and I have flown 
aircraft that have not so modern cockpits. And I have seen that 
within the Department of Defense as a whole we have, it seems, 
airplanes that have propellers don't get the fancy cockpits, 
but airplanes that have jets do get the fancy cockpits. In the 
Reserves and the National Guard they don't get the fancy 
cockpits, but in the Active Component they do get the fancy 
cockpits.
    This seems to be a trend not just in the Navy, but also in 
the Air Force, and this is a challenge that I am going to take 
very personally, because the safety of our aircrew goes across 
all branches and it goes throughout the different components of 
the branches. And I want to hear what your commitment is to 
obligate the funds to make sure that AMP actually becomes a 
program that gets implemented in the cockpits.
    And I would also say that the airplanes that I have flown, 
you get into different airplanes and you have all different 
configurations of avionics, different software within the 
multifunction displays, and we need standardization across the 
fleet. What AMP does is it standardizes C-130 cockpits for the 
National Guard and for the Reserve, and I would just like to 
hear your commitment to that.
    General Jones. Sir, so a couple of things I would like to 
address. First of all, I want to express my appreciation for 
your commitment to ensure the safety of our airmen, and I thank 
you for your service previously as well, and that is something 
that we all remain very concerned about.
    So, sir, as you may be aware, the AMP program has a number 
of elements to that. One of it is to make sure that we maintain 
viable in national airspace and international airspace for our 
AO [area of operations]. And then there are some avionics, 
glass cockpit, and, sir, I know you are well aware of all 
those.
    So the first thing that we need to do, sir, I know you are 
aware of the IDA [Institute for Defense Analyses] study and we 
are waiting for the results of the GAO [Government 
Accountability Office] study, and once we get that study that 
will enable us to move out on whichever program, whichever path 
we take.
    Mr. Bridenstine. Well, hold on real quick. Because if the 
funds are authorized and explicitly appropriated for this 
specific purpose and it goes to the Pentagon and then you don't 
obligate the funds, do you really need to do a study?
    General Jones. So, sir, what we are trying to do is figure 
out the best way to meet the Air Force total requirements for 
our Nation.
    Mr. Bridenstine. And you realize that by studying the best 
way you are intentionally going around the will of Congress?
    General Jones. Sir, what we are trying to do is maximize 
the capability for our Nation. So if I could have just one 
second, sir. So as I mentioned before, the HUD [head-up 
display] is critical, I thought, as a single-seat pilot, but 
for the $2.63 billion, as we look in this fiscally constrained 
environment, and particularly as we go back to the law of the 
land and go back to that hard BCA [Budget Control Act] level, 
sir, I have also flown airplanes that don't have a HUD, the 
[RC-135] Rivet Joint, the AWACS, the tanker, and in a crew 
environment there is the ability to cross-check, and, sir, I 
know you are well aware of that.
    And so in the hard choices that we are all faced to make in 
this fiscal environment as we go across the entire spectrum 
that we have to go through, would we like to do it? Sir, there 
are a number of programs that we would like to do. But we are 
forced in this environment to figure out what are the hard 
choices that----
    Mr. Bridenstine. But real quick, there are no choices here. 
The money has been appropriated specifically for that purpose. 
There is no real choice in this matter.
    I yield back. I am out of time. Thank you, Mr. Chairman.
    Mr. Forbes. But the gentleman's question is a good one. One 
of the things that we are experiencing with all of the services 
is almost a separation of power situation. But when Congress 
does, as the gentleman mentioned, not only authorize but 
appropriate something, and then we hear the services come back 
and we are finding out whether we want to use it or not, that 
doesn't bode well. And so we will be looking at stronger 
language this time for this and other issues the same way to 
make sure that we don't lose that process.
    I am not faulting you guys, but maybe you can take that 
message back over to the big house.
    And Mr. Johnson is recognized for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    General Jones, the New START treaty requires a reduced 
number of deployed nuclear weapons, which in turn will require 
the Air Force to decertify a certain number of B-52 aircraft. 
What is the projected number of B-52 aircraft that you will 
decertify in order to meet New START requirements?
    General Jones. Sir, that exact number will be dependent on 
the final resolution of the submarine-launched ballistic 
missiles and what we have for our ICBM [intercontinental 
ballistic missile] fleet. And so as we get that number, then we 
will be able to adjust the bomber fleet number. The New START 
treaty says that we could go up to 60. We would prefer not to 
go below that, but our final number is still yet to be 
determined pending the resolution across the triad.
    Mr. Johnson. All right. General Jones, USTRANSCOM has 
stated a requirement for 567 aerial tankers to meet its steady 
state and contingency surge requirements, yet the Air Force 
only has an inventory of 454 tankers. What risk is the Air 
Force incurring by not having the sufficient number of tankers 
in the inventory to meet USTRANSCOM's requirement?
    General Jones. Sir, our most recent mobilities capability 
assessment, 18, shows that we can meet our requirements with 
479 tankers. The number that you referred to earlier from 
TRANSCOM was from a previous study, and if I was to 
characterize risk it is at the far, you know, the lowest 
portion of risk.
    We believe that 479 number, without getting into specific 
details in this classification level, is in the heart of the 
envelope of risk. And so as we bring the KC-46 on board we will 
continue to build from 455 up to 479, and then as we reach that 
number we will start to divest some of our legacy fleet to 
maintain that 479 number.
    Mr. Johnson. All right.
    Dr. LaPlante, your principal military deputy for 
acquisition, Lieutenant General Davis, was quoted in the press 
a few weeks ago stating that, quote, ``Of course, the new 
bomber will cost more than $550 million per aircraft,'' end 
quote. Can you explain to the subcommittee why you have a $550 
million cost target and what assumptions are not included in 
that cost figure?
    Dr. LaPlante. Yeah. Thank you for the question. So the $550 
million number is what is called an APUC or an average price 
per unit cost. That number is referenced to fiscal year 2010 
adjusted for inflation year dollars and assumes a quantity of 
80 to 100 bombers being built over the time period that we are 
planning to build them.
    As we have talked a little bit about in this hearing, the 
idea that we are holding to very firmly is to give the 
designers and the teams essentially a marker in the sand saying 
the unit cost, you know, and you have to give them the 
assumptions on what year you are talking about and what 
quantity, which we do, will not exceed this number, and 550 is 
the number.
    So it is being used, and it is being used well, in my view, 
as a way to force the designers for the concepts to do the 
right trades so that we don't end up what we have done too 
often in the past where we let the requirements go where they 
go and let them change and then later on we come back and say, 
oh, we don't want it to cost more than this much money and the 
design has already been done.
    So this is something where it is a deliberate, premeditated 
way at the beginning of the program to set the requirement and 
the unit cost firm and being disciplined in keeping to that. 
And in my view, we should be doing this on many other programs. 
I hope we would do it on munitions, for example. So that is the 
idea behind it.
    And then my understanding of General Davis was in his 
discussion was trying to make that point and trying to make 
sure that people understood what the 550 was, which was this 
reference number to fiscal year 2010, and not to get people to 
be focused on whether the 550 itself, we were going to be above 
it or below it in any one year. It is the target--so far we are 
so good, it is very early, though--that is being used to design 
the airplane, and there is nothing has changed. Nothing has 
changed.
    Mr. Johnson. General Jones, the Air Force is required by 
law to maintain a B-1 combat-coded inventory of 36 aircraft, 
for which the Air Force is complying with. However, the 
subcommittee understands that for 3 of those 36 aircraft they 
do not have the same crew ratio or flying hours programmed 
against them as the other 33 B-1 combat-coded aircraft.
    Can you explain to the committee the reason for this 
difference and what risks do you incur in meeting combatant 
commander requirements if all 36 combat-coded B-1 aircraft were 
required to meet presence and operational requirements?
    General Jones. Yes, sir, absolutely. Our bomber fleet is 
one of the most stressed weapon systems that we have in terms 
of meeting our combatant commander requirements. For the 36, as 
you said, the tails are fully funded for modernization. We keep 
the tails in a combat-coded status and will continue to 
modernize them.
    In a previous budget deliberation we had proposed going 
from 36 to 33. However, in follow-on deliberations the 
requirement was set at 36. We do need to go back in the next 
budget to take a look at the dollars that it would cost to 
return the crew ratios and the appropriate flying hours, and 
that is one of the programs that we are going to look at and 
need to look at in 2016.
    Mr. Johnson. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Thank the gentleman.
    I would like to remind the members that as soon as we 
adjourn we will reconvene in 2337 for our next briefing.
    And, gentleman, if there are any additional comments that 
any of you would like to make, as we indicated at the outset, 
we want to make sure this is your transcript and give you that 
opportunity to do it.
    Dr. LaPlante, thank you for being here, and we will let you 
go first.
    Dr. LaPlante. Well, I will just say thank you to the 
committee and thank you, Chairman Forbes and Ranking Member 
McIntyre and all the members. I appreciate your questions. I 
think they are the right questions about the tough issues we 
have. And as you can see, it is all about risk, and risk is 
hard to assess, and that is what we are really talking about 
here, is where to take those risks.
    But thank you again, and I look forward to working with the 
committee.
    Mr. Forbes. Thank you.
    General Thompson.
    General Thompson. Mr. Chairman, thanks so much for having 
us over here today to talk about things that we feel very 
strongly about. You know, there are thousands of tanker crew 
and maintainers around the world right now flying KC-135s and 
KC-10s. In fact, last year they conducted over 40,000 sorties, 
they refueled over 90,000 different aircraft, and they 
transferred nearly 160 million gallons of fuel to warfighters, 
humanitarian airlift missions, whatever, all around the world. 
They need a new weapon system, and the KC-46 is that new weapon 
system.
    I am over here on a quarterly basis to update the 
professional staffers of this committee on the status of that 
program, and with your permission I will continue to do so and 
stop in to see you from time to time as well.
    Mr. Forbes. That door is always open, General. Thank you.
    And, General Jones.
    General Jones. Mr. Chairman, I want to thank you and the 
members of the committee for giving us the opportunity to come 
by and talk to you. I think it is critically important that we 
have these dialogues with you to at least explain the logic 
behind what we have done, and I know that there are 
deliberations yet to come as to what is right for our Nation.
    Sir, I thank you and I thank the committee for your passion 
and for your dedication towards our military services and doing 
what is right for us all. We all face difficult times ahead and 
there will continue to be tough challenges that we will have to 
work our way through.
    But, sir, your invitation for us to come and be able to 
explain where we are, explain our concerns, is critical, I 
think, as we try to move forward in the right way. So I thank 
you and the committee for the support that you give all of our 
military members. But from a member in blue, thank you for what 
you do for our airmen and for our families.
    Mr. Forbes. To all of you, thank you so much. We look 
forward to meeting with you further in 2337. With that, we are 
adjourned.
    [Whereupon, at 4:46 p.m., the subcommittee was adjourned.]



=======================================================================



                            A P P E N D I X

                             April 2, 2014

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 2, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 2, 2014

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MRS. NOEM

    General Jones. The cost to fully fund three combat coded B-1s will 
be approximately $58 million per year. Of those costs, over $26 million 
will be required for active duty officer and enlisted personnel, while 
$32 million will be needed to increase the B-1 flying hour program to 
required levels.   [See page 17.]
    General Jones. Based on the New START Treaty-compliant force 
structure, announced on April 8, 2014, the Department of Defense will 
retain 46 of the 76 operational B-52Hs as nuclear-certified heavy 
bombers, and will convert 30 B-52H bombers to a conventional-only role, 
thereby removing them from treaty accountability. In addition, all 20 
B-2s will remain nuclear capable, resulting in 66 nuclear capable 
bombers, with no more than 60 of those in deployed status from a New 
START Treaty perspective.   [See page 17.]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 2, 2014

=======================================================================



                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. Knowing that the KC-46 tanker contract is fixed-price, 
how important is it to maintain funding stability for the program and 
what are the risks to the program if funding gets interrupted?
    Dr. LaPlante. Maintaining funding stability to meet incremental 
funding requirements is paramount for the KC-46 program. Interrupting 
or significantly altering required funding introduces the risk of 
impacting the aircraft and training system contracts or other 
government costs which cover critical efforts like the flight test 
program. If the aircraft contract requires renegotiation due to funding 
or schedule changes, these negotiations would be conducted in a sole 
source environment. This could negate the near $3B savings from the 
original contract negotiation, and would not be prudent from a 
taxpayers' perspective. Schedule delays also impact Air Mobility 
Command plans to introduce new operational capability and retire aging 
legacy tankers.
    Mr. Forbes. In lieu of C-130 AMP program, the Air Force wants to 
develop a lesser avionics modernization capability that will not 
provide the required capability and reliability throughout the service-
life of the C-130 aircraft to meet FAA and International airspace 
flight restrictions. What is the cost to develop a lesser avionics 
modernization program that will satisfy airspace flight restrictions to 
keep the C-130H aircraft relevant and capable through year 2040, its 
projected service life?
    Dr. LaPlante. The January 2020 Federal Aviation Administration's 
(FAA) mandate for ADS-B Out is the only current airspace restriction. 
The fiscal year 2015 (FY15) President Budget (PB) includes funding for 
the C-130 CNS/ATM program which allows the C-130H aircraft to meet the 
FAA's January 2020 mandate. The total FY15 PB fiscal year defense plan 
(FYDP) funding for the program is $178M; the program is planned to 
complete in FY23.
    The Institute for Defense Analyses (IDA) September 2013 C-130 
Avionics Modernization Analysis estimates the FY15 PB C-130 CNS/ATM 
program total cost at $620M for 192 aircraft.
    Mr. Forbes. Due to budgetary constraints, the Air Force deferred 
upgrading B-2 aircraft with a more enhanced mission planning and 
execution Defensive Management System. By deferring this capability, 
how does this affect the B-2's ability to fly in contested and anti-
access/area-denial environments?
    General Jones. As enemy air defenses begin to modernize and 
proliferate, the B-2 must also continue to modernize. The B-2 Defensive 
Management System modernization program will keep the aircraft viable 
against these future threats. Delays to the program may cause delays to 
the IOC which would put the B-2 and its aircrew in an increased risk 
environment without the best tools to mitigate the risk. More specific 
details can be discussed at a higher classification level.
    Mr. Forbes. The Air Force plans to decrease its C-130H force 
structure by approximately 40 aircraft beginning in FY15 and maintain a 
total C-130 inventory of 318 aircraft in the near term, and 328 
aircraft in the long term after the last production C-130J is 
delivered. Can you tell us how you arrived at the 318 and 328 numbers 
taking into account Army direct-support airlift requirements and their 
associated force structure reduction, as well as, the 2014 Quadrennial 
Defense Review's requirement to maintain a combat-coded inventory of 
300 C-130 aircraft?
    General Jones. The 2014 Quadrennial Defense Review's reference to 
300 C-130 aircraft is part of the ``Planned U.S. Force Structure'' and 
doesn't in and of itself establish a C-130 requirement. This planned C-
130 fleet size reflects the Fiscal Year 2019 (FY19) 328 Total Aircraft 
Inventory (TAI) number, which includes 300 Primary Mission Aircraft 
Inventory (PMAI), 26 Primary Training Aircraft Inventory (PTAI), and 2 
Backup Aircraft Inventory (BAI) aircraft.
    Decisions regarding C-130 force structure were driven by the fact 
that the Air Force has excess tactical airlift capacity. The FY13 
National Defense Authorization Act directed the Air Force to retain 
additional intra-theater airlift aircraft above the Total Force 
Proposal submitted to Congress in November 2012. This established a 
``floor'' of 358 aircraft, well above the assessed requirement of 316 
during the building of the FY13 President's Budget (PB). The Air Force 
extended the ``floor'' through FY14 to create space and time for 
dialogue with Congress.
    The Mobility Capabilities Assessment-18, published on May 1, 2013, 
determined ``there is no surge scenario associated with the current 
defense strategy--even one in which a significant [Homeland Defense] 
event occurs concurrently with two warfights--that requires a fleet of 
358 C-130s. This includes accounting for C-130s that would be dedicated 
to the Army's direct support mission.'' In fact, the report finds that 
the Air Force requires no more than 320 C-130s, and as few as 248. For 
the Army direct support mission, these calculations utilize conclusions 
from a 2012 RAND study that suggests four intra-theater cargo aircraft 
are needed for each Combat Aviation Brigade (CAB)/General Support 
Aviation Battalion (GSAB) employed in a conflict. Accordingly, the Air 
Force has proposed to retire 47 aircraft in the FY15 PB, consistent 
with Department of Defense guidance to divest excess capacity. As we 
move forward in FY16, we will continue to evaluate options to ``right-
size and recapitalize'' the C-130 fleet beyond the proposed reductions.
    Mr. Forbes. Knowing that the KC-46 tanker contract is fixed-price, 
how important is it to maintain funding stability for the program and 
what are the risks to the program if funding gets interrupted?
    General Thompson. Maintaining funding stability to meet incremental 
funding requirements is paramount for the KC-46 program. Interrupting 
or significantly altering required funding introduces the risk of 
impacting the aircraft and training system contracts or other 
government costs which cover critical efforts like the flight test 
program. If the aircraft contract requires renegotiation due to funding 
or schedule changes, these negotiations would be conducted in a sole 
source environment. This could negate the near $3B savings from the 
original contract negotiation, and would not be prudent from a 
taxpayers' perspective. Schedule delays also impact Air Mobility 
Command plans to introduce new operational capability and retire aging 
legacy tankers.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Your Principal Military Deputy for Acquisition, 
Lieutenant General Davis, was quoted in the press a few weeks ago 
stating that ``of course the new bomber will cost more than $550 
million per aircraft.'' Can you explain to the subcommittee why you 
have a $550 million dollar cost target and what assumptions are not 
included in that cost figure?
    Dr. LaPlante. That requirement is $550M in base year 2010 (BY10) 
dollars for the production of 100 aircraft. We have made informed 
trades to meet the average procurement unit cost (APUC) requirement. 
The APUC number does not include development cost and does not include 
the impact of inflation. The number has been very important in 
establishing an affordable design
    Mr. Langevin. New START treaty requires a reduced number of 
deployed nuclear weapons, which in turn, will require the Air Force to 
decertify a certain number of B-52 aircraft. What is the projected 
number of B-52 aircraft that you will decertify in order to meet New 
START requirements? What might cause that number to shift?
    General Jones. The Air Force will convert 30 B-52H bombers to a 
conventional only role, thereby decertifying those aircraft from the 
nuclear mission and removing them from accountability under the New 
START Treaty. The Air Force does not anticipate shifting the number of 
B-52 conversions and plans to implement the conversions in accordance 
with Section 1042 of the National Defense Authorization Act for Fiscal 
Year 2012
    Mr. Langevin. If the Air Force is required to execute fiscal 
resources at Budget Control Act sequestration levels, what operational 
risk do you incur by having to divest the entire KC-10 tanker aircraft 
fleet? What other programmatic options would you have to execute if 
Congress prohibited the retirement of KC-10 aircraft?
    General Jones. If Budget Control Act (BCA) level caps are 
maintained into Fiscal Year 2016 and the Air Force is forced to divest 
the KC-10 before sufficient numbers of KC-46s are fielded, we would 
have less flexibility in meeting air refueling demands across a broad 
spectrum of operations, resulting in fewer ready forces to support 
current strategic guidance. The resulting tanker force will be smaller, 
but still required to meet pre-divestiture air refueling demand levels. 
Higher tanker readiness and availability levels are required to meet 
the strategy.
    If Congress prohibits the Air Force from retiring the KC-10 fleet, 
the Air Force's ability to meet the strategy will be at greater risk 
and we would be forced to shift critical funds from our readiness and 
recapitalization/modernization accounts, as well as consider reductions 
in other parts of our force. These may include deferring KC-46A 
procurement and reducing the KC-135 and the C-5 fleets. BCA-imposed 
cuts to our readiness and recapitalization/modernization accounts mean 
a less capable, smaller force that's even less ready for tomorrow's 
fight.

                                  <all>

</pre></body></html>
